GOODMAN HURWITZ & JAMES, P.C.
ATTORNEYS AND COUNSELORS
1394 E. JEFFERSON AVENUE
DETROIT, MI 48207
(313) 567-6170 / (313)251-6068 FAX
WILLIAM H. GOODMAN

bgoodman@goodmanhurwitz.com
GENERAL INQUIRIES:

JULIE H. HuRwiTz

mail@goodmanhurwitzcom

jhurwitz@goodmanhurwitz.com
KATHRYN BRUNER JAMES

kiames@Roodmanhurwitz.com

WWW.GOODMANHURWITZ.COM

MELISSA BROWN

mbrown@goodmanhurwitz.com

April 7, 2021
Via Overnight Mail
Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

6th Circuit Case No. 20-1305; Eberline, et al. v. Douglas J. Holdings, Inc., et al.

Dear Mr. Bickell:
I am counsel for Respondents in the above-referenced case. On March 19, 2021, a certiorari petition was
docketed in this case. Unless extended by the Court, the response would be due on April 19, 2021. For the following
reasons, and pursuant to Rule 30.4, I respectfully request an extension of 14 days, to and including May 3, 2021.
I have had several pressing obligations in recent weeks, with more in the upcoming weeks, including but
not limited to:
Personal obligations throughout this time period related to a family member's medical care;
An all-day budget workshop on March 27, as part of my duties as a Councilmember for the City of
Ferndale, Michigan;
Meetings, research, and drafting a COVID-19 Preparedness & Response Plan the week of March 29, a
mandatory requirement for reopening our office in the State of Michigan;
Preparation for an appearance at a status conference following the Sixth Circuit's mandate in the instant
matter, Eberline v. Douglas Holdings, Case No. 14-10887, before Judge Judith Levy in the Eastern
District of Michigan on April 1;
My family is at home for spring break April 2 through April 11;
Meetings on April 9 and April 14 for the Metro Detroit Chapter of Advocates and Leaders for Police
and Community Trust, of which I am a Facilitator for the organization's Steering Committee;
Two dental appointments on April 12 and April 19, to finish a lengthy tooth extraction, implant, and
crown procedure;
Two Reply Briefs due on April 19 in Ray Ahmed Fayad v James McMahon, et al., U.S. District Court,
Eastern District of Michigan;
Plaintiff-Appellant's Brief is due on April 26 in S. Baxter Jones v City of Detroit, Case No. 21-1055,
Sixth Circuit Court of Appeals, for which I am lead counsel for the plaintiff; and
My co-counsel also has similar obligations, including deadlines or/or court appearances on April 15 for
Wetzel v EMH, Macomb County Circuit Court, April 16 for Delgado v Servpro, Midland County Circuit
Court, and April 19 again for Wetzel.

RECEIVED
APR 1 2 2021

OFFICE OF THE CLERK
SUPREME COURT, U.S.

Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
April 7, 2021
Page 12

An extension will allow me and my co-council to meet our upcoming obligations and also to file a response
that adequately addresses the points raised in the petition.
For these reasons, I ask that a 14-day extension to May 3, 2021 be granted. Thank you for your attention
to this matter.
A copy of this letter will be e-filed upon my admission.
Sincerely,
Goodman Hurwitz & James, P.C.

Kathryn Bruner James
Counsel for Respondent
KBJ:los
cc via email only:
John Philo
Matthew T. Nelson,
Amanda Fielder
Brandon Cory
Michael Brady
Adam T. Ratliff
William M. Jay
Gerard J. Cedrone

